August 6, 2009

ABELARDO P. MUNOZ, JR.
SENIOR PLANT MANAGER, SANTA CLARITA
 PROCESSING AND DISTRIBUTION CENTER

SUBJECT: Audit Report – Color-Coding of Standard Mail® and Mail Condition
         Reporting at the Santa Clarita Processing and Distribution Center
         (Report Number NO-AR-09-008)

This report focuses on color-coding1 of Standard Mail and mail condition reporting at the
Santa Clarita Processing and Distribution Center (P&DC), Santa Clarita, CA (Project
Number 09XG024NO000). The objectives of the audit were to determine whether the
Santa Clarita P&DC had an adequate mail color-coding process and properly counted
mail. This is the second in a series of reviews addressing the new color-coding policy
for Standard Mail. This audit, which U.S. Postal Service Headquarters Processing
Operations Management requested, addresses operational risks. See Appendix A for
additional information about this audit.




1
 The Postal Service uses a system of color-coding to facilitate timely movement of Standard Mail. The color-code
process assigns a color to each day of the week.
Color-Coding of Standard Mail and Mail Condition Reporting at the                                    NO-AR-09-008
 Santa Clarita Processing and Distribution Center


Conclusion

The Santa Clarita P&DC generally color-coded the mail to reflect color-coding
requirements as of August 29, 2008. However, employees did not properly color-code
some mail or did not use the standardized color-code tag. In addition, we found not all
delayed mail was reported. For example, employees counted over 48,000 mailpieces
but did not record them as delayed. Management took immediate corrective actions
and reported the delayed mail.2

Color-Coding of Standard Mail

Of the 240 staged Standard Mail containers reviewed, 226 (about 94 percent) were
properly color-coded and the remaining 14 were not color-coded in accordance with
policy. Specifically:

       •   Eight (about 3 percent) were missing color-code tags.
       •   Two (less than 1 percent) were missing the time and/or date from the tag.
       •   Four (about 1.7 percent) were tagged with multiple color tags.

We also found that when mail bearing different color-codes was processed together; it
was not always properly re-color-coded. Additionally, the color-code tag the Santa
Clarita P&DC used was a modified version of the national standardized tag.

These conditions occurred due to:

       • Confusion as to the application of the new color-code policy.
       • No local procedures for maintaining the mail color-code after processing.

Without accurate color-coding, the Postal Service cannot ensure timely processing,
dispatch, and delivery of Standard Mail. Without a date and time on the tag, the Postal
Service cannot determine whether employees processed Standard Mail using the first-in
first-out (FIFO) method.3 Additionally, the Postal Service cannot readily track service
standards and accurately report mail conditions in the web-based Mail Condition
Reporting System (MCRS). Failure to accurately color-code and date the mail could
also confuse delivery units about when the mail needs to be delivered. See Appendix B
for our detailed analysis of this topic.

We recommend the Senior Plant Manager, Santa Clarita Processing and Distribution
Center:

1. Provide training to ensure proper color-coding of Standard Mail according to Postal
   Service policy.

2. Establish local procedures to maintain the correct color-code throughout processing.
2
    Management took immediate corrective action to label all containers with the standardized tag.
3
    Mail is staged and processed based on order of receipt.


                                                            2
Color-Coding of Standard Mail and Mail Condition Reporting at the                               NO-AR-09-008
 Santa Clarita Processing and Distribution Center



Management’s Comments

Management agreed with the findings and recommendations and corrected the
deficiencies. In addition, all applicable employees completed training and supervisors
initiated daily reviews of reports. All Distribution Supervisors will receive semiannual
color-code tests to ensure compliance with color-code policy. See Appendix D for
management’s comments in their entirety.

Mail Condition Reporting

The Santa Clarita P&DC was not accurately reporting delayed mail. For example, on
June 2, 2009, the mail counter in the Santa Clarita P&DC recorded 48,044 mailpieces
scheduled for delivery on June 3 as on-hand, but did not report the volume as delayed.4
Bringing this to the attention of plant management resulted in reporting the volume as
delayed.

These conditions occurred because:

    • Management did not oversee the employee performing the mail count.
    • The counter misinterpreted the policy, believing they had until the delivery day to
      process the mail before reporting it as delayed.
    • Employees did not review count sheets prior to input in MCRS.

Not properly reporting delayed and on-hand mail volumes may prevent management
from making effective operational decisions. This could also impact customer service
without management’s knowledge. See Appendix B for our detailed analysis of this
topic.

We recommend the Senior Plant Manager, Santa Clarita Processing and Distribution
Center:

3. Oversee employees to ensure the accurate counting and reporting of Standard Mail
   volume according to Postal Service policy.




4
 On June 2, 2009, the Santa Clarita P&DC had 480,596 pieces of Standard Mail on hand. The 48,044 pieces of
delayed mail represent 10 percent of this volume.


                                                      3
Color-Coding of Standard Mail and Mail Condition Reporting at the              NO-AR-09-008
 Santa Clarita Processing and Distribution Center


Management’s Comments

Management agreed with the finding and recommendation. The Lead Manager,
Distribution Operations, and plant support staff are verifying mail condition reports on a
daily basis.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to all the
recommendations and corrective actions should resolve the issues identified in the
report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Jordan M. Small
    Frank Neri
    Kerry L. Wolny
    Chris R. Oronzio
    Katherine S. Banks
    Bill Harris




                                                    4
Color-Coding of Standard Mail and Mail Condition Reporting at the                                     NO-AR-09-008
 Santa Clarita Processing and Distribution Center


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Standard Mail is essential to the growth of the Postal Service and is a major factor in its
economic health.5 Standard Mail accounts for approximately 49 percent of all mail
volume and 27 percent of the revenue of the U.S. Postal Service per year.6 Delivering
Standard Mail timely is important for operational efficiency and customer satisfaction.

The Postal Service uses a system of color-coding to facilitate timely movement of
Standard Mail. The color-code process assigns a color to each day of the week. This
enables easy processing of mail using the FIFO method. Management updated the
color-coding policy on June 17, 2008, with an effective date of August 29, 2008. In
December 2008, management made an additional update to the policy clarifying
reporting requirements. The Postal Accountability and Enhancement Act of 2006
requires delivery standards for all classes of mail. While standards have not changed,
the policy maintains the integrity of the color-code from processing to delivery. The
service standard for Standard Mail is 3–10 calendar days.

              MAJOR CHANGES TO THE NATIONAL COLOR-CODE POLICY
                            FOR STANDARD MAIL
                    Old Policy                            New Policy — Updated August 29, 2008
Each unit establishes their Critical Entry              National CET 1600 standardized at all facilities
Time (CET)                                              nationwide
Bulk Mail Center (BMC) not required to
                                                        BMC required to color-code
color-code
New color-code at each entry point and                  Once delivery color-code is applied, maintain
level of distribution                                   through to delivery unit

MCRS reports delayed mail, plan failure,
                                                        MCRS reports delayed mail flow
and delayed dispatch

No standardized placarding                              National standardized placarding
                                                        Standardized tags to identify the facility applying
Each unit had own color-code method
                                                        the color-code
Color-coded for last mailer “In-Home” date              Color-coded based on time and date of receipt

Policies and procedures pertaining to the color-coding system are set forth in
Section 458 of the Postal Operations Manual (POM). The Postal Service is revising the
POM to reflect changes in the new color-code policy.


5
  Standard Mail weighs less than 16 ounces and includes circulars, pamphlets, catalogs, newsletters, direct mail, and
merchandise.
6
  U.S. Postal Service Annual Report, 2008.


                                                          5
Color-Coding of Standard Mail and Mail Condition Reporting at the               NO-AR-09-008
 Santa Clarita Processing and Distribution Center




             Illustration 1:

 A chart provides the correct color-
code to label mail at the Santa Clarita
               P&DC.




In support of the changes to the National Color-Code Policy, management also made
changes to the MCRS. Categories in the MCRS such as Plan Failure, Delayed
Processing, and Delayed Dispatch are no longer reported for Standard Mail. The term
“Delayed Mail Flow for Standard Mail” is a new MCRS definition and occurs when mail
is not processed, finalized, or dispatched from a specific operation or facility to ensure
delivery by the programmed delivery day.

Management updated the national color-coding policies to include changes
recommended in prior U.S. Postal Service OIG reports. This is the second report
reviewing implementation of the updated policies.




                                                    6
Color-Coding of Standard Mail and Mail Condition Reporting at the             NO-AR-09-008
 Santa Clarita Processing and Distribution Center


OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether the Santa Clarita P&DC had an adequate
mail color-coding process and properly counted mail.

This is the second in a series of audits addressing color-coding and mail reporting at
P&DCs nationwide. We selected the Santa Clarita P&DC based on the
recommendation of Postal Service Headquarters.

To determine whether color-coding procedures conformed to the National Color-Code
Policy, we observed color-coding of Standard Mail at the Santa Clarita P&DC during the
week of June 1, 2009. Additionally, we verified the mail count and reviewed count data
put into the MCRS. We interviewed Postal Service officials and employees and
photographed operations and observed conditions.

We used computer-processed data from the following systems:

    •   Web Enterprise Information System
    •   MCRS
    •   Enterprise Data Warehouse

We did not test controls over these systems. However, we checked the reasonableness
of results by confirming our analysis and results with Postal Service managers.

We conducted this performance audit from May through August 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on June 4, 2009, and included their
comments where appropriate.




                                                    7
     Color-Coding of Standard Mail and Mail Condition Reporting at the                                      NO-AR-09-008
      Santa Clarita Processing and Distribution Center



     PRIOR AUDIT COVERAGE

        Report Title                   Report Number              Final Report Date                    Report Results
Color-Code Capping                     NO-MA-07-003              September 28, 2007          Opportunities were identified to
Report7                                                                                      improve the color-coding process
                                                                                             nationwide. Management agreed
                                                                                             with the report recommendations.
Mail Condition Reporting at             NO-AR-08-005                  August 5, 2008         There were opportunities to
International Service                                                                        improve mail condition reporting.
Centers Capping Report8                                                                      While reports were timely, they
                                                                                             were often incomplete and
                                                                                             inaccurate. Management agreed
                                                                                             with the report recommendations.
Color-Coding of Standard                NO-AR-09-006                  June 9, 2009           Opportunities exist for the West
Mail and Mail Condition                                                                      Palm Beach P&DC to improve
Reporting at the West Palm                                                                   color-coding and reporting of
Beach Processing and                                                                         delayed mail to reflect the color-
Distribution Center                                                                          coding and delayed mail reporting
                                                                                             requirements as of August 29,
                                                                                             2008. Management agreed with
                                                                                             the report recommendations.




     7
         This capping report summarized the results of four audits on color-coding.
     8
         This capping report summarized the results of four audits on mail condition reporting.


                                                                  8
Color-Coding of Standard Mail and Mail Condition Reporting at the             NO-AR-09-008
 Santa Clarita Processing and Distribution Center


                             APPENDIX B: DETAILED ANALYSIS

Color Coding of Standard Mail

During the week of June 1, 2009, we examined 240 staged containers of Standard Mail
for compliance with the National Color-Code Policy. We found that 226 (about 94
percent) containers were properly color-coded. Of the 14 containers not properly color-
coded, we found:

    •    Eight (about 3 percent) were missing color-code tags.
    •    Two (less than 1 percent) were missing the time and/or date from the tag.
    •    Four (about 1.7 percent) were tagged with multiple color tags.

See Appendix C for a chart of the observations.




        Illustration 2:

A container of Standard
Mail with multiple color-
    code tags. This
  container was color-
 coded blue for Monday
   delivery by the Los
 Angeles BMC and has
  an additional tag the
Santa Clarita BMC added
  indicating Saturday
        delivery.




In addition, we found that color-coding could be improved at the Automated Package
Processing System machine. Chart 1 shows two groupings of mail before processing –
the older mail represented by a violet color tag, dated June 1 and more recent mail
represented by the yellow color tag, dated June 2. After the mail was processed we
observed employees incorrectly attach a green tag to all the mail and date it May 31,
with a 5 a.m. processing time. This process actually incorrectly inflates their delayed
mail volumes.


                                                    9
    Color-Coding of Standard Mail and Mail Condition Reporting at the               NO-AR-09-008
     Santa Clarita Processing and Distribution Center




                      Chart 1: Process Observed at the Santa Clarita P&DC

S        Violet
T       June 1
A   Various Times
G                                                                        Processed Mail
E
                                      Processing                              Green
D                                     Equipment                              May 31
                                                                            5:00 A.M.
M
        Yellow
A
        June 2
I
    Various Times
L




    Rather, the proper procedure as depicted in Chart 2 was to tag all the mail with the
    oldest date of June 1 represented by the violet color tag. After the mail was processed,
    all the new violet color-code tags should have received the earliest time of the June 1
    mail.


                    Chart 2: The Correct Procedure for Color-Coding the Mail

S
         Violet
T
        June 1
A
G
    Various Times
                                      Processing                        Processed Mail
E                                                                            Violet
D                                     Equipment                             June 1
M                                                                        Earliest Time
        Yellow
A
        June 2
I
    Various Times
L




    We also found the Santa Clarita P&DC created their own version of the National Color-
    Code tag. In an attempt to assist their employees, they added information related to
    receipt of the mail. While this may be helpful in certain situations, headquarters has not
    approved the tag modification, which can cause confusion. Management took
    immediate corrective action to label all containers with the standardized tag.




                                                        10
Color-Coding of Standard Mail and Mail Condition Reporting at the               NO-AR-09-008
 Santa Clarita Processing and Distribution Center




         Illustration 3:

  The tag on the left was
   modified by the Santa
 Clarita P&DC. The tag at
 the right is an example of
   the standardized tag.




Causes

These conditions occurred due to:

    • Confusion as to application of the new color-code policy.
    • No local procedures for maintaining the mail color-code after processing.

Criteria

According to the National Color-Code Policy for Standard Mail, color-coding procedures
provide a guide to help maintain service goals for Standard Mail. All Standard Mail will
be color-coded and Standard Mail without a color-code will be coded the same as the
oldest mail in the unit at the time of its discovery. Additionally, all color-code tags will
comply with a standardized national format which will require employees to enter the
date and time of mail entry on each tag. The delivery color-code is based on the
original entry date and time of the mail, not the processing date or time. Additionally,
the P&DC must develop local procedures to ensure they maintain the correct color-code
for all mail based on its arrival, even when such mail is entered into mechanized or
automated sorting systems.

Effect

The Postal Service cannot ensure the timely processing, dispatch, and delivery of
Standard Mail. Without a date and time on the tag, the Postal Service cannot determine
whether employees processed Standard Mail using the FIFO method. Additionally, the


                                                    11
Color-Coding of Standard Mail and Mail Condition Reporting at the               NO-AR-09-008
 Santa Clarita Processing and Distribution Center


Postal Service cannot readily track service standards and accurately report mail
conditions in MCRS. Advancing the color-code of the mail limits the delivery unit’s
ability to timely process and deliver the mail.

Mail Condition Reporting

During our observations the week of June 1, 2009, the Santa Clarita P&DC was not
accurately reporting delayed mail. For example, on June 2, 2009, the mail counter in
the Santa Clarita P&DC recorded 48,044 mailpieces scheduled for delivery on June 1
as on-hand, but did not report the volume as delayed. The counter stated they always
recorded the next day’s mail in this fashion. The Santa Clarita P&DC did not document
the volume of mail on-hand by delivery day; therefore, we were not able to enumerate
the volume underreported prior to our observations. Bringing this issue to the attention
of plant management resulted in reporting the volume as delayed mail flow.

Criteria

According to the National Color-Code Policy and the policy for mail condition reporting,
reporting delayed mail flow for Standard Mail is necessary to provide an accurate
snapshot of daily facility conditions for Standard Mail. Additionally, destinating 5-digit
non–Delivery Point sequencing mail9 should be reported as delayed 1 day before the
scheduled delivery day.

Cause

These conditions occurred because:

       • Management did not provide oversight to the employee performing the mail
         count.
       • The counter misinterpreted the policy believing they had until delivery day to
         process the mail before reporting it as delayed.
       • Management did not review count sheets prior to input in MCRS.

Effect

Not properly reporting delayed mail and on-hand volumes may prevent management
from making effective operational decisions. Customer service could be impacted
without management’s knowledge.




9
    Mail that requires further sorting down to the carrier route.


                                                               12
   Color-Coding of Standard Mail and Mail Condition Reporting at the                        NO-AR-09-008
    Santa Clarita Processing and Distribution Center


    APPENDIX C: OBSERVATIONS OF COLOR-CODING OF STAGED MAIL AT THE
                         SANTA CLARITA P&DC
                                   Containers     Missing       Incomplete   Wrong                Error Rate
 Date      Time      Location                                                        Tag Origin
                                   Observed        Tags            Tags      Color                Percentage

6/1/2009   2115    Door 50 Dock               6             0           0        0   BMC                   0
6/1/2009   2120    Door 43 Dock               3             0           0        0   BMC                   0
6/1/2009   2125    Door 42 Dock              21             0           0        0   BMC                   0
6/2/2009   1700    Door 43 Dock              25             0           0        0   P&DC                  0
6/2/2009   1720    Door 43 Dock              12             0           0        4   BMC/P&DC             33
6/3/2009    500    APPS                       2             0           2        0   P&DC                100
                   staging
6/3/2009    930    APPS                       6             0           0        0   P&DC                  0
                   staging
6/3/2009   1215    Robot area                 7             0           0        0   P&DC                  0
6/3/2009   1620    AFSM                       9             0           0        0   P&DC                  0
                   staging
6/3/2009   1640    Automation                66             0           0        0   P&DC                  0
                   staging
6/3/2009   2245    Door 47 Dock              35             0           0        0   BMC/P&DC               0
6/5/2009   1000    Door 43 Dock              29             3           0        0   P&DC                  10
6/5/2009   1003    Door 49 Dock              11             2           0        0   BMC/P&DC              18
6/5/2009   1005    APPS                       8             3           0        0   BMC                   37
                   staging
Total                                      240              8           2        4
Percent                                                                                                    6




                                                       13
Color-Coding of Standard Mail and Mail Condition Reporting at the   NO-AR-09-008
 Santa Clarita Processing and Distribution Center

                        APPENDIX D. MANAGEMENT’S COMMENTS




                                                    14
Color-Coding of Standard Mail and Mail Condition Reporting at the   NO-AR-09-008
 Santa Clarita Processing and Distribution Center




                                                    15
